                           OFFICE OF INSPECTOR GENERAL
                        BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                             CONSUMER FINANCIAL PROTECTION BUREAU
                                     WASHINGTON, DC   20551




September 19, 2012

The Honorable Deborah J. Jeffrey
Inspector General
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW
Suite 830
Washington, DC 20525

Subject: Quality Assessment Review of the Investigative Operations of the Office of Inspector
         General for the Corporation for National and Community Service Investigative
         Operations

Dear Ms. Jeffrey:

We have reviewed the system of internal safeguards and management procedures for the
investigative functions of the Office oflnspector General (OIG) for the Corporation for National
and Community Service (CNCS) in effect during the period May 1, 2011, through May 18, 2012.
Our review was conducted in conformity with the Quality Standards for Investigations and the
Quality Assessment Review Guidelines for Investigative Operations ofFederal Offices of
Inspector General established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) and the Attorney General's Guidelines for Office oflnspectors General with
Statutory Law Enforcement Authority, as applicable.

We reviewed compliance with the CNCS OIG's system of internal policies and procedures to the
extent we considered appropriate. The review was conducted at the CNCS OIG's headquarters
in Washington, DC. Additionally, we interviewed several criminal investigators and
management personnel and sampled 27 investigative case files closed during the 12-month
period ended May 18, 2012.

In performing our review, we considered the provisions of Section 6(e) of the Inspector General
Act of 1978, as amended, 5 U.S.C. app. 3. Section 6(e) authorizes law enforcement authority for
Ms. Deborah Jeffrey                          2                     September 19, 2012


presidentially appointed Inspectors Generals, which may be exercised only for activities
authorized by the Inspector General Act of 1978, as amended; other statutes; or as expressly
authorized by the Attorney General.                               ·

In our opinion, the system of internal safeguards and management procedures for the
investigative function of the CNCS OIG in effect during the period May 1, 2011, through
May 18, 2012, is compliant with the quality standards established by CIGIE and the applicable
Attorney General guidelines. These safeguards and procedures provide reasonable assurance of
the CNCS OIG's conformance with professional standards in the planning, execution, and
reporting of its investigations.

If you have any questions, please do not hesitate to contact me at 202-973-5005.

Sincerely,




Inspector General

Enclosure
cc: U.S. Department of Justice, Office of the Attorney General
     Carl W. Hoecker, Chair, Investigations Committee, CIGIE
